Q$ 1 '

941=

■'i-.-'

V

.JSU

-.

r

IN THE
SUPREME COURT OF THE UNITED STATES

:-

.'

.

'.'•••>•

rlU-<~’

??s?, \

«:' vat- ---•

■

j

- fi

OFFiCEO^B^

DfWiD
i0£JDR~?

TITIONER

vs.

IP^Ps^I 44k

.P)PE-W 0"Q^ RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

P^pu^pr f? pkr PfeTRLcr 4i2>aPcr cy ftPeAL
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Of^ib

TferpMXv

(Your Name)

c1° il? M. ^PruoarS^r.
(Address)

STBRKg, £[,

I

(City, State, Zip Code)

8- CfMM#' Ate
(Phone Number)

-(AIX

QUESTION(S) PRESENTED

U
a£
1^

sureUA£JK\S-

A: Oi/o

B^ Dn

O'

cJr

'VoT vkolpinr^ '
%

f

rl\

rx\akur^j CL ^'TcnV-vr^ ^

U31^4 c>3r o3r ^
\

is

9>-^

0

CrL' <3

t/Sii

si.
e=Ci)-. -f4.i
)

XxJ^

^

c

/

t

tpo-c*
■

5

•o_
(VVj

QjdlP^u3 V

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
All parties do not appear in the caption of the case on the cover page. A list of
' all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

CrtwsjjfeS ■+- Pts-xeu^ W fvu_
fy^c>ss
Tfefeovs, SAiSD iYi

CoOJFLRrvbr, UJHD .

RELATED CASES

\o\"i— ^2)3tv\s"C L ^ Vix—CJPv yoo

• 4/

0

X

ip

X>(hTRLcT (jdcPT <sf

vgr-iS^M*

<9&X> -

&

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_____________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: _________ :__
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix -p\___
r rehearing was thereafter denied on the following date:
and a copy of the order denying rehearing
appears at Appendix
__
,i<

[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
X-

US. Onsta'l u-Wv,
Q^oeJpfoc^ c^&> 43S*Of*Q

Cftlr,,W^Wo>*°
OTcto^

;

ULSo (W^'H^hixv,
rv

\

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A

OtvsiotO of
of

fvesr Dcstrlct

AfPfefVC^ f APPUU lS~, Z02-D

APPENDIX B

OpOOTT ©r ftizeioAAPPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

, ,

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

| eme^see^f - Lor^
m

.WWritOj

~Tofwi>]

X33k U3 G^af C2jao\

S£?3

STATUTES AND RULES

ffexibeu Sfeyd&t 1

13X33 plS%

/:

e>S^y
/

s
OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix /\__to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
^kjs unpublished.
The opinion of the ^TA^VAT1-A
LAJP
appears at Appendix _0>__to the petition and is

\) t~T

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
Xj^jjs unpublished.
1.

court

STATEMENT OF THE CASE
This case involves the foreclosure and sale of Petitioner’s income-producing
working hor_se farm that served as an autistic adult, Mary Katherine Day-Petrano’s
community-basedjiying home and only way she can earn a livelihood.
Petitioner Day-Petrano has over 29 million views on her YouTube Channel,
The Autism Channel, that reveals the truth about her autistic life and the manner in
which Florida’s unconstitutional State Courts System took her income-producing
working horse farm and home.
Petitioners, Mary Katherine Day-Petrano, and David Frank Petrano, are an
autism family. Petitioner Day-Petrano is diagnosed with autism with savant
splinter abilities [T.R. 385-453, Exhibit containing Day-Petrano’s autism
diagnosis]!, among other disabilities.1
Petitioner Day-Petrano’s autism diagnosis makes this an issue of first
impression. Petitioner Day-Petrano is not only an adult with autism but passed a

harder bar exam than virtually any one of Florida’s licensed lawyers and State
Court Judges / Justices and their legal assts.
Petitioner Day-Petrano loses every single case known to man in eveiy court
in the State of Florida and this Country because she has auti sm .
Petitioners have been treated with nothing but disrespect by every Court in
the State of Florida and this Country from the time they “regarded” her autism “as”
a “mental illness” thus lacking requisite fitness all the way through to the last
decision of the Florida First District Court of Appeal.
Every statement, eveiy fact, or rule of law Petitioners have ever presented
has been called “frivolous” because Petitioner Day-Petrano has autism.
“The diagnosis of an autism spectrum disorder (autism, autism spectrum
disorder, pervasive developmental disorders, Asperger Syndrome and related
disorders) is ALWAYS relevant and needs to be explained to police and legal
personnel.”
“A diagnosis of an autism spectrum disorder is as relevant to police and
legal proceedings as a diagnosis of mental retardation or mental illness would be,
no matter how bright, high functioning, and/or verbal the person may be. „2

1 Judicial System, AutismSpeaks, available at
https://www.autismspeaks.org/iudicial-system {citing Doyle, B.T. (2009) “And
Justice for All: Unless You Have Autism - What the Legal System Needs to Know
About People With Autism Spectrum Disorders ”) (hereafter “Judicial System ”).
2 Id.

This is so, because some 98 percent of autistic people,are inherently and
immutably “wired” with what can best be described as a different operating system
that is not compatible with nor.mrtistic people (hereafter “nev.rotyp.lca Is”). tri
addftionTo b^

entire state court system and society is built by that

neurotypical majority]
IrTTanuarv 2019, Florida’s attorney licensing arm, The Florida Bar, admitted
upon'the bar admission of Haley Moss “the first autistic to be admitted to The
Florida Barb that Florida’s attorney licensing arm and the entirety of Florida’s
State Court System bench are composed of 100 % non-autistic lawyers and judicial
officers]
Autistic people are a discrete and insular minority.
The fact that one of the parties in the case is autistic is outcomedeterminative in any court case.3
The-foreclosure and sale contravened the Due Process and Equal Protection
Clauses of the Fourteenth Amendment to-the U1S. Constitution and the “Takings”
Clause of the Fifth Amendment to the U.S. Constitution.'
During February 2020, the Florida Office of State Courts Administrator
(hereafter “OSCA”) - after waiting almost 30 years after enactment of Title II of

3 Rob George, Laura Crane, Alice Bingham, Clare Pophale & Anna Remington
“Legal professionals’ knowledge and experience of autistic adults in the family
justice system,” available at https://core.ac.Uk/reader/l 11074374 . ^

the ADA - finally posted its tardy Title II ADA Guidelines for autism spectrum
disorder disabilities.
OSCA did so only after Petitioner Day-Petrano confronted Sheri ff Kevin
Taylor, the Florida First District Court of Appeals’ “ADA Coordinator” about
Florida’s appellate judicial officers repeatedly requiring her to prove her autism
disability was a “True Emergency” in order to be provided with the extra time
“reasonable modifications to rales”5 and other “reasonable accommodations” and
“auxiliary aids and services” she needed.
Mr. Taylor’s own autism spectrum educational training required by Florida
Statutes (Sec. 943.0439) provided him with the knowledge that Petitioners were
being denied meaningful access to Florida’s appellate court and that if Florida was
going to offer an appellate court to non-disabled people it had to offer one with
meaningful access to everyone including autistic disabled people.
I.

FLORIDA CREATED AN UNCONSTITUTIONAL“ROCKET
DOCKET” SEGREGATED COURT SYSTEM WITHIN ITS
STATE COURTS SYSTEM FOR THE PUBLIC PURPOSE OF

4 The “Americans with Disabilities Act of 1990, the ADA Amendments Act of
2008, and 2?. CFF, Part ?5 Title T Guidelines for the State Courts System of_ _
_____ _
Florida,” Prepared by Office of the State'Courts Administrator, Revised: February' :
2020, available at___. _ ____
5 Because Petitioner Day-Petrano is not able to read fast and comprehend due to
her vision impairments_pperating together with her autism spectrum disorder
disability and inherent characteristic of slower information processing, she runs out
of time when extended time accommodations are not provided.

FINANCING ITS COURT SYSTEM AND MAINTAINING A
READY FLOW IN MORTGAGE FUNDING AVAILABILITY BY
MAKING “TAKINGS” OF PROPERTY WITHOUT JUST
COMPENSATION AND DUE PROCESS OF LAW
This Court should, respectfully, grant Certiorari and strike it down.
The features of Florida’s unconstitutional “Rocket Docket” segregated court
system within its State Courts System are as follows:
1. The State of Florida has created a special “Rocket Docket” segregated court
system within its State Courts System to finance the Florida state courts
including the salaries of judicial officers, thereby unconstitutionally giving
Florida judges a financial stake in the outcome of all foreclosure and related
ccTfrury to this Court’s ori.or dco'<o*t In Turney v. Chic. 2"T TC. c If
' • *

An entry on the docket of this case in the trial court shows that the Florida
State Courts went after the foreclosing Respondent to pay her “Rocket
Docket” filing fee.
2.' Florida States Courts System created a policy and/or practice under the
“Rocket Docket” to cross-out the “ADA Notice of Rights” on the summons
served with a foreclosure complaint [T.R. No. 250 & 251 on the Docket
Sheet], because Title II of the ADA and “reasonable accommodations” ‘do
not apply’ in Rocket Docket cases.
This policy and/or practice is based on the illegal discriminatory assumption
that “qualified individuals with a disability” do not own real property or take
out mortgages.
It is also based on the misinterpretation of the ADA’s Title II “reasonable
accommodations” mandate. The Trial Judge, affirmed by the First District
Court of Appeal repeatedly applied the Civil Rights Act of 1964’s disparate
treatment standard to Petitioner’s Title II ADA “reasonable

accommodations” requests, to wit: u[T]he court is prohibited from affording
■ an individual with a qualified disability a service that is not equal to that
afforded to others” [T.R. 521-523, * 1].
3. Fionoa’s special ‘^Rocket Docke’f ^segregated ^court system within its"State
Courts System institutionally rigs the outcome of cases where a disabled
individual is a party by maintaining exclusi ve jurisdiction only in the Florida
Supreme Court to make “reasonable modifications to rules,” 42 U.S.C. §
12131(2); PGA Tours. Inc. v. Martin, 532 U.S. 661 (2001), and to make
“qualified individual with a disability” determinations, while allowing lower
Florida trial and appellate courts to move cases forward to judgment and
disposition without performing their “duty” to ask the Florida Supreme
Court for a reasonable modifications to rules,” 42 U.S.C. § 12131(2); PGA
Tours, supra. This feature of Florida’s foreclosure and sale “Rocket Docket”
is contrary to Tennessee v. Lane, 541 U.S. 509 (2004) (“reasonable
accommodations” are consistent with Due Process).
Florida’s judiciary knows Title II of the ADA requires them to make
“reasonable modifications to rules,” 42 U.S.C. § 12131(2); PGA Tours,
supra, and to make “qualified individual with a disability” determinations by
referencing whether the individual can perform the “essential functions”
“with or without” “reasonable modifications to rules.” Id., § 12131(2); AC
PGA Tours.
A “sister” Florida appellate court rendered an written ADA Grievance
decision stating that only the Florida Supreme Court has exclusive
jurisdiction (pursuant to Art. V, Sec. 2 of the Florida Constitution) to make
the “reasonable modifications to rules” that Title II of the ADA requires,
implying also that because of this, is the only Florida Court with exclusive
jurisdiction to make “qualified individual with a disability” determinations.
1 That prior decision queried whether a Florida State Court lower than the
Florida Supreme Court ‘has a duty’ to ask the Florida Supreme Court to
make a “reasonable modification of rules” required by Title II of the ADA in
any case in which a disabled party needs one.

Petitioner Petrano was vetted by the Florida Board of Bar Examiners to
require extra time to meet the “essential functions,” and Petitioner DavPetrano was vetted by the Committee of Bar Examiners of the State Bar of
California to require time-and-a-half extra time to meet the “essential
functions.” The “essential functions” being tested on a bar exam include
bringing and defending lawsuits in any court. The Trial Judge even filed
Petitioner Day-Petrano's extra time “reasonable modifications to rules”
granted to her to take and pass the California Bar Exam in the record of this
ease [TJR. 2114-2117].
, Despite both Petitioners requiring across-the-board extra time “reasonable
rules modifications,” at no time were they provided to them by any of the
Florida State Courts involved in this case and related cases that arose out of
this case.1
4. “Rocket Docket” discovery — depositions, and mediation, do not provide any
Title II ADA “reasonable rules modifications,” “reasonable
accommodations,” or “auxiliary aids and services,” and are cancelled to
exclude when the disabled Petitioners requested them denying them full and
equal enjoyment of the same services and benefits available to all others.
5. The “Rocket Docket” requires foreclosure counterclaims and collection of
profits from the real property to be “bifurcated,” and all affirmative
foreclosure defenses to be ‘stricken or waived’ and, because of this, found to
be “frivolous” (because trial of defenses is not allowed under the “Rocket
' Docket”).
Petitioner’s had filed a bankruptcy and their Chapter 13 plan was continued,
mentioning and dealing with the Respondent’s mortgage debt by imposing
f.'e cnnclition on the treatment rihe ’received (of relief from stay to have r.
— —
y'*T '■)' ’■'■’7 ">

abrogated.” The Trial Judge and Florida First District Court of Appeal
defied this Order by the Trial Judge striking and waiving all of Petitioners
affirmative defenses to “default” them, and the Florida First District Court of
Appeal affirming this “per curiam.”

6. The “Rocket Docket” required the Trial Judge to hold a foreclosure trial and
enter a “default” foreclosure judgment while Petitioner Petrano was admitted
into University of Florida Shands Hospital in a contagious vims isolati on
room and was not free to leave (a restraint on his liberty) [T.R. .1537-1646 &
, 1647-1834], and Petitioner Day-Petrano required him both as a key witness,
and to facilitate her autistic communication by keyboarding - despite there
being a “General Rule of No Jurisdiction.” PANDEMIC INFLUENZA
BENCHGUIDE, § 3.3(c), at Pg. 31.6
7. Because the “Rocket Docket” requires foreclosure counterclaims and
collection of profits from the real property to be “bifurcated,” and all
affirmative foreclosure defenses to be ‘stricken or waived’ and, because of
this, found to be “frivolous” (because trial of defenses is not allowed under
the “Rocket Docket”), the Trial Judge and First District Court of Appeal
found the related counterclaim case and real property profits collection case
to be “frivolous,” and diverted Petitioners for life into Florida’s “Rocket
Docket” segregated courts system by entering “Vexatious Litigant” prefiling orders and naming them to a stigma-plus “Vexatious Litigant Registry',
where the State statute, Florida Statute Sec. 68.093, does not require any
' consideration of a disability or if the person was “reasonably
accommodated” and where “vexatious” is given a ‘numbers of cases lost’
definition departing from the ordinary dictionary meaning of “vexatious.”
The “Vexatious” designation is legislatively targeted to people “regarded as”
having mental illness. See Terri A. March-Safbom,7 Weapons Of Mass
6 PANDEMIC INFLUENZA BENCHGUIDE: LEGAL ISSUES CONCERNING
QU ARANTINE AND ISOLATION, A Project of the Florida Court Education
Council’s Publications Committee, Florida Office of the State Courts
Acm istmtor, 2019 EDITION (previously 2013 Be., 2007 Be.). The “Purpose” of
ulc PANDEMIC INFLUENZA BENCIiGUiDE is “to serve as an educational
resource for the courts in the event of a pandemic influenza or an analogous
situation.”
7 Court Administrator, North Las Vegas Justice Court, Fellow of the Insti tute for
Court Management, 2009, MPA, University of Nevada, Las Vegas, 2004, MBA,
•*0'

Distraction: Strategies For Countering The Paper Terrorism Of Sovereign
Citizens,8 Naval Postgraduate School: Monterey, California, Department of
Defense U.S. Government,9 IRB number NPS.2017.0057-IR-EM2-A (March
2018) Pgs. 1, 25-26 (hereafter “Homeland Security And Defense Domestic
Courts Terrorism Paper”).
iTarbitrarily, legislatively decides that no person needs to file more than 5
cases in a 5year time period without regard to the significantly higher
number of cases autism families and aduft_autistic business owners need to
file. It conducts^a type of “appellate review” over final Federal cases__by
counting thenfand re-deciding that they are “frivolous” even where a
Federaf Judge chose not to make any such finding;
Sijby^/c^rRespondent iaAyyers threatened Petitioners that if Petitioners did
not drop theirclai m s and defenses, then they would “never get a bar
• admission” because Respondent lawyers would “go through the back door”
of the Vexatious statute to “make sure” Petitioners “never get a bar
admission.”]
Florida’s Vexatious statute says in the legislative history it applies to pro se
peoplewithoutlegal education and does not requirejfact findings about the
rnethod and number of hours of factual andjegal research the person did,
yvhether the person consulted a licensed Bar member who instructed them
[heir clainToTieifense had merit and they had to sue, or findings to prove if
the person has a J.D. degree and passed a Bar Exam that the person is no
University ofNevada, Las Vegas, 1999, B.S., University ofNevada, Las Vegas,
.1994. Homeland Security And Defense Domestic Courts Terrorism Paper, at pg. 5.
* Aprvovec. by: C?rotvn Msi.ado.y.

Co-Advison .uvcdc. Aoers, Co-yVcv sor;

Erik Dahl, Ph.D., Associate Chair of Instruction, Department of National' Security "
Affairs. Homeland Security And Defense Domestic Courts Tenwism Paper, at pg.
5.
9 Submitted in partial fulfillment of the requirements for the degree of MASTER
OF ARTS IN SECURITY STUDIES (HOMELAND SECURITY AND
DEFENSE) from the NAVAL POSTGRADUATE SCHOOL (March 2018).
Homeland Security And Defense Domestic Courts Terrorism Paper, at pg. 5.

longer operating at that level and that is the reason the person is in need of
legal representation by a peer with a Bar license.
Florida’s Vexatious statute and Vexatious Litigant Registry creates a
segregated “Rocket Docket” State Courts System by entrapping disabled
parties to lose cases by assigning the Title II ADA “reasonable modifications
in rules” exclusive jurisdiction to the Florida Supreme Court; processing
cases through to judgment and disposition without having that Court grant
the “reasonable modifications is rules” while Florida’s District Courts of
Appeal block Florida Supreme Court review by issuing a per curiam
1 affirmed decision every time Title II ADA “failure to reasonably
accommodate” issues have been brought up on appeal; and by the Vexatious
Litigant statute, Florida Statutes Sec. 68.093, violating Title II of the ADA
on its face by not requiring consideration of a disability and whether the
current case or counted cases “failed to reasonably accommodate.”
The Trial Judge, affirmed by the Florida First Di strict Court of Appeal,
made clear that this foreclosure case served as the factual basis for the
“Vexatious Litigant” orders, dismissals, judgments, and Vexatious Litigant
Registry designation, by referring to Petitioner Day-Petrano’s autism
spectrum disorder disability in related Case No. 01-2016-CA-2514) as a
“continuing pattern of behavior in this case and the other case involving
and 01-2915-CA-269?);; Cn- Vthese "‘e^nciants
2012-CA-06i688 is me case number tor this foreclosure case 111 the Trial
Court.
The “Vexatious” designation was then used to impose tens of thousands of
dollars upon these disabled Petitioners to pay the opposing lawyer’s attorneys fees
and costs in advance (non-refundable if Petitioners prevailed), to impose tens of
thousands of dollars upon these disabled Petitioners to hire a homogenous
neurotypical Florida Bar member to represent them (to censor and impose prior

Restraint on Petitioner Dav-Petrano’s autistic speech and viewpoint), or else, deny
^etidoners access to the Florida State. Courts because Petitioner Day:Petrano has
autism.
On February 21, 2020, the Respondent through her counsel, Ronald A.
Hertel, Esq., FBN 41114, filed a motion requesting the affirmative relief of entry
ofa'Cer Curiam Affirmed”-in-mis foreclosure/ saIe-(lDl-9“0023)7Gontrary-tothe-“*
first impression issue that Office of State Courts Administrator had just revised the
Title II ADA Guidelines for Florida Judges to add guidelines for autism spectrum
disorder disabilities:
The Appellants have been found to be vexatious litigants for their
propensity for filing meritless pro se actions, such as the instant
appeal and that in ID 19-0028 (in addition to those filed in 1D17-0889
’ and 1D18-1360). Both pending appeals should be affirmed, per
curiam, so this litigation can finally end.
[Appendix 1, at pg. 2,% 4]. On April 15, 2020 (No. 1D19-0028), this Court entered
the above-affirmative relief the Respondent and her counsel, Mr. Hertel, had
requested of “Per Curiam Affirmed.” By using this case as the basis for the
imposition against Petitioners of Vexatious Litigant designation, orders, and
Vexatious Litigant Registry on account of Petitioner Day-Petrano’s autism

spectrum disorder disability, Respondent opened the door10 to challenge the
constitutionality of Florida’s segregated State Courts System, the Vexatious
Litigant Statute and Registry.
The Office of State Courts Administrator’s Title II ADA Guidelines for
-autism spectrum-disordsr-disahiii-tie-s-States-, that'experr witBesses-sre-^equi-redAor—
Bar and Bench members to understand autism; autism does not change depending
on whether it is a criminal versus a civil trial or even a bar admission. Not one
Court ever has utilized experts on autism spectrum disorders, before pronouncing
every case, every claim, every pleading, every motion, every response, every
appeal, every contract performed to be paid for work Petitioner did or to purchase
real property “frivolous.”
The same Eighth Judicial Circuit of Florida Court, in a case just before this
foreclosure trial and sale, The Florida Bar v. David Frank Petrano, SCI 4-2287
(Fla. 2015), the Eighth Judicial Circuit of Florida ADA Coordinator provided
Petitioner Day-Petrano the following Title II ADA “reasonable accommodations:”
(1.) typing on her facilitated communication computer all “oral spoken testimony
10 Moreover, because this case was the predicate case for the imposition of
“Vexatious Litigant” orders, registry, and per curiam affirmed decisions in 3
related appeals against these Petitioners, judicial work remained to be done of
deciding the basis for such at issue in this case, and therefore none of the prior 3
related appeals could become final until disposition of this case by the Florida First
District Court Of Appeal on April 15, 2020.

and argument,” and the Clerk read it into the record; (2.) CART realtime; (3.)
numerous rest breaks; (4.) use of courtroom bathroom; (5.) escort through the
courthouse to enable Day-Petrano to navigate the courthouse to and from the
courtroom.
None of the “reasonable accommodations” the SAME TRIAL COURT
provided to Petitioner Day-Petrano in the case just before this foreclosure trial and
sale, The Florida Bar v. David Frank Petrano, SC 14-2287 (Fla. 2015), were
provided to her in this case involving the foreclosure / sale.
Among the “reasonable accommodations” Petitioner Day-Petrano requested
in this case was an autism language interpreter / transcriber-translator in both her
Response to Appellee’s deposition motions and in her Florida Rule of Judicial
Administration 2.540 “reasonable accommodations” form handed to the Trial
Judge. The failure to provide a language interpreter/transcriber-translator denied
Petitioner Day-Petrano a legal presence in this foreclosure case and sale and is a
separate violation of Due Process of Law.
The same identical parties, Petitioners and Respondent, had already
adjudicated in a prior case, Petranos v. Old Republic National Title Insurance
Company, N.D.Fla. No. 1:12-cv-0086-SPM/GRJ that Petitioner Day-Petrano
required and would be provided an autism language interpreter.
The Trial Judge Made A False Statement To Petitioner Dav-Petrano on
Transcript to Set The Foreclosure Sale, to wit:

“What I can tell you is that every specific accommodation you have asked
me for, I have provided,” [T.R. 2241-2255, Transcript On Motion To Set
Foreclosure Sale Hearing, Feb. 26, 2018, at 1:39:00-1:39-18].
> The Trial Judge’s statement on Transcript is knowingly false because
Petitioner Day-Petrano’s Florida Rule of Judicial Administration 2.540 “reasonable
accommodations” form that stated on its face it pertained to this foreclosure case
and sale (“. :2012-CA-1688-MG”) requested EIGHT (8) Title II ADA “reasonable
accommodations and there is no substantial competent evidence in the trial record
whatsoever that all eight (8) of Petitioner Day-Petrano’s specific Title II ADA
“reasonable accommodations requests were ever “provided” by the Trial Court - or
the Florida First District Court of Appeal.
Petitioners were denied a fundamentally fair and unbiased foreclosure trial
and sale.
Further, by disobeying the condition of the U.S> Bankruptcy Court’s Plan
Confirmation Order that Petitioners “state contract defenses shall not be
abrogated,” the Florida State Courts made a “Takings” of Petitioners’ property
without Just Compensation in contravention of the Fifth Amendment to the U.S>
Constitution. They did so for the public purpose of their “Rocket Docket” court
financing scheme and to maintain the

Florida.

^avg^la'aihtff g>f mortgage tuning, .?.n„. „

REASONS FOR GRANTING THE PETITION
The injury Petitioners are complaining of, and have been complaining of, is
the Florida State Courts System putting autistic Petitioner Day-Petrano in a
neurotypical (non-autistic) institutionalized Court System that is by flawed design
not capable of adjudicating cases involving autistic people, taking Petitioners rights
and property away from them, and imposing prior restraints and censorship on
Petitioner Day-Petrano’s different autistic perspective by ordering Petitioners to
have hire a neurotypical (non-autistic) lawyer who hasn’t even passed as hard of a
Bar frxam as Petitioner Day-Petrano has and refuses to understand, much less
represent, the different autistic perspective.
Florida’s State Courts System is unconstitutional by giving its judicial
officers a financial stake in the outcome of foreclosure cases, by using a “Rocket
Docket” that strikes and waives all foreclosure defenses and thereby designates any
such defense as “frivolous,” which is then used to divert “qualified individuals
with a disability” into a segregated special Court within the Florida State Court
System to deny autistic.people a voice without censorship or prior restraint by nonautistic lawyers.
This is an issue of great public importance.
This Court should respectfully strike down Florida’s foreclosure and sale
system as unconstitutional, reverse the decisions of the Trial Court and Florida

First District Court of Appeal, and, further, strike down Florida's Vexatious
Litigant statute, Florida Statutes, Sec. 68.093 and its Vexatious Litigant Registry
for violating the ADA’s Title II prohibition on segregation. 28 C.F.R. § 35.130(d).

t

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

^ro

Date: _i.

11

